CERTIFICATE OF SERVICE
I, BURUDI J. FAISON, DO HEREBY DECLARE AND AFFIRM
UNDER THE PENALTIES OF PERJURY, PURSUANT TO 18 USC
1621 and 28 USC 1746, THAT A COPY OF THIS WRIT FOR
CERTIORARI WAS MAILED TO THE SOLICITOR GENERAL OF THE
UNITED STATES AT THE DEPARTMENT OF JUSTICE, ROOM 5616,
950 PENNSYLVANIA AVE. N.W. WASHINGTON D.C. 20530-0001,
ON THIS 30th DAY OF MAY 2021. FURTHERMORE, I DO
DECLARE AND AFFIRM THAT THIS WRIT FOR CERTIORARI WAS
PLACED IN THE HAZELTON FCI PRISON MAILBOX IN ACCOR­
DANCE WITH THE HOLDING OF HOUSTON V. LACK 487 US 266.

DATE: (

%

t

BURUDI/J. FAISON

